                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

  Case Number: 1-12060033                                                                     Page 1 of 1



          We received an allegation that funds charged to an NSF award to a university 1 were
          inappropriately authorized for travet2. The allegation suggested that travel vouchers had been
          manipulated and stated that an official complaint to the EEOC had been lodged against the
          university. Our investigation determined that the above allegations were not substantiated.

          Our investigation revealed that the university had incorrectly coded certain expenses to an NSF
m---""aw=ard3---which--wronglyincurrethndirect-custs-as-a--result-'fhe--university-retumediurrd~io-NSF'-----111 --­
          and will take steps to ensure proper coding and submissions of expenses in the future.

          The investigation is complete with no further action necessary. Accordingly, this case is closed.




 NSF OIG Form 2 (11/02)
